BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Amy Triplett Morgan, hereby certify that 1 copy
of the foregoing Reply Brief for Petitioner in 20-1046,
Marin Housing Authority v. Kerrie Reilly, was sent via
Next Day Service to the U.S. Supreme Court, and three
copies via Next Day Service and e-mail service to the
following parties listed below, this 27th day of May,
2021:
Nathaniel Peardon Garrett
Jones Day
555 California Street, 26th Floor
San Francicso, CA 94104
(415) 875-5731
ngarrett@jonesday.com
Counsel for Respondent
Robert Cooper
Counsel of Record
Wilson Elser Moskowitz Edelman & Dicker LLP
555 S. Flower Street
Suite 2900
Los Angeles, CA 90071
(213) 330-8950
robert.cooper@wilsonelser.com
Counsel for Petitioner

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED
(800) 890.5001

www.beckergallagher.com

I

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

' Franklin Square
· 1300 I Street, NW, Suite 400E
Washington, DC 20005

I further certify that 1 copy of the foregoing Reply
Brief for Petitioner in 20-1046, Marin Housing
Authority v. Kerrie Reilly, was sent via e-mail service to
the following parties listed below, this 27th day of May,
2021:
John Egan
Rubin and Rudman LLP
53 State Street
Boston, MA 02109
(617) 330-7181
jegan@rubinrudman.com

Counsel for California Association of Housing
Authorities
John Michael Reeves
Reeves Law LLC
3703 Watson Rd.
St. Louis, MO 63109
(314) 775-6985
reeves@reeveslawstl.com

Counsel for Scott County Community
Development Agency

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on May 27, 2021.

Amy ·iple
an
Becker Gallagher Leg
lishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date: ·~

~

Notary Public
[seal]

J+f cf.Jc]-/

fJL ~

\___)

